U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

October 16, 2019
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Brandon Lee Mojica v. United States, No. 19-35
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on July 2, 2019,
and placed on the docket on July 3, 2019. This Court requested a response to the petition on
August 23, 2019. The government’s response is now due, after one extension, on October 23,
2019. We respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of
time to and including November 22, 2019, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner consents to this further extension.
Sincerely,

Noel J. Francisco
Solicitor General
cc:

See Attached Service List

19-0035
MOJICA, BRANDON LEE
USA

ZACHARY LEE NEWLAND
BRANDON SAMPLE PLC
PO BOX 250
RUTLAND, VT 05702
802-444-4357
ZACH@BRANDONSAMPLE.COM

